No. 20A107

In the Supreme Court of the United States
______________________________________________
LOUISIANA REAL ESTATE APPRAISERS BOARD,
Applicant,
v.
UNITED STATES FEDERAL TRADE COMMISSION,
Respondent.
______________________________________________
On Application to Stay Orders
of the United States Court of Appeals for the Fifth Circuit

________________________________
SUPPLEMENTAL BRIEF
IN SUPPORT OF APPLICATION FOR STAY
______________________________________________
Thomas C. Goldstein
Counsel of Record
Eric F. Citron
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave. Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com
Laura Welikson
CONSTANTINE CANNON LLP
335 Madison Avenue
9th Floor
New York, NY 10017
212-350-2700

W. Stephen Cannon
Seth D. Greenstein
Allison F. Sheedy
Richard O. Levine
James J. Kovacs
J. Wyatt Fore
CONSTANTINE CANNON LLP
1001 Pennsylvania Ave., N.W.
Suite 1300N
Washington, DC 20004
(202) 204-3500
Counsel for Applicant
Louisiana Real Estate Appraisers Board

To the HONORABLE SAMUEL A. ALITO, JR., Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Fifth Circuit:
We initially submitted on December 7, 2020, an application for a stay in
Louisiana Real Estate Appraisers Board v. Federal Trade Commission, which this
Court docketed on December 9, 2020, after resubmission on December 8, 2020. See
No. 20A107.

We submit this short supplemental brief to provide notice of a

subsequent development in the law related to the case.
Our application (at 11-12) describes a three-way disagreement among the
courts of appeals on the rule that governs the appealability of an order denying state
action antitrust immunity. Our case arises from the Fifth Circuit, which has the rule
that government entities can immediately appeal, but private parties cannot. See
Martin v. Mem’l Hosp. at Gulfport, 86 F.3d 1391 (5th Cir. 1996). Our application
notes (at 12-13) that the Eleventh Circuit necessarily has the same rule with respect
to government entities because that court (alone) permits all parties—including even
private entities—to take an immediate appeal. See, e.g., Commuter Transp. Sys., Inc.
v. Hillsborough County, 801 F.2d 1286, 1290 (11th Cir. 1986) (permitting a county
aviation authority’s appeal from an order denying state action antitrust immunity);
Praxair, Inc. v. Fla. Power & Light Co., 64 F.3d 609, 611 (11th Cir. 1995) (same for
private entity). Three other courts deny an immediate appeal even to governmental
entities. The upshot is that the three-way disagreement can also be described as a 3to-2 split over whether government entities can take an immediate appeal. Indeed,
that was the circuit disagreement and question presented described in the petition

1

for certiorari this Court granted in Salt River Project v. Tesla Energy Operations, Inc.,
No. 17-368, before it was dismissed in light of a settlement. 138 S. Ct. 1323 (2018).
With that background, we write to notify the Court that, shortly after we
submitted our application for a stay, the Eleventh Circuit decided sua sponte to hold
rehearing en banc in SmileDirectClub, LLC v. Battle, 969 F.3d 1134 (11th Cir. 2020)
(No. 19-1227), vacated, --- F.3d ----, 2020 WL 7214148 (11th Cir. Dec. 8, 2020).* The
panel decision in that case—identified in our application—had granted an immediate
appeal to private members of a state government dental board after those members
were denied state action antitrust immunity, but it likewise denied those members’
claim of immunity on the merits. Neither party requested rehearing en banc, and so
the question of interest to the whole court in that appeal has not been squarely
identified. But Judge Jordan had concurred at the panel stage to suggest that, on the
question of immediate appealability, the Eleventh Circuit should either adopt the
rule that applies in the three circuits that always deny immediate appeals, or the rule
in the Fifth Circuit that non-governmental entities cannot take an immediate appeal.
See SmileDirectClub, 969 F.3d at 1147-48 (Jordan, J., concurring). And the third
panel member had dissented on the ground that, in that particular case, the district
court had reserved decision on the board members’ immunity pending further factual
development, making its order truly interlocutory.
dissenting).

*

The Eleventh Circuit’s order is attached to this filing.

2

Id. at 1148-49 (Tjoflat, J.,

It is thus possible, although not certain, that the Eleventh Circuit en banc will
reach the issue that divides the courts of appeals and potentially alter the shape of
the circuit split. But even if it does, it will not eliminate the disagreement entirely.
The question that divided the courts of appeals in Salt River will remain a live one
no matter what the Eleventh Circuit may hold. Indeed, because the state board itself
was dismissed on sovereign immunity grounds in SmileDirectClub (which dismissal
is not at issue in that appeal), that case concerns only the remaining private
defendants, and so cannot have any direct impact on a case like this one (or Salt
River), where the state entity is the defendant. And the latter question of board
immunity (which our application presents) is likely to be of far greater significance to
the States, and so is a more pressing candidate for this Court’s consideration.
Finally, we note that future opportunities to consider the question presented
may not present themselves. Because the circuits have made it more and more
difficult to bring a direct appeal, fewer and fewer state boards are willing to run the
gauntlet to this Court simply to win the prize of an appeal where they may still lose
on the merits. Indeed, it is notable that neither party sought en banc review in
SmileDirectClub, which suggests that there may not be an incentive to seek certiorari
in that case (or other, similar cases) after the en banc Eleventh Circuit rules.
Meanwhile, as our application notes, the issue itself has only become more pressing
for state authorities after this Court’s decision expanding state board liability in
North Carolina State Board of Dental Examiners v. FTC, 574 U.S. 494 (2015). The
intersection of that issue with the question of immediate appealability is uniquely

3

presented in this case. Accordingly, it is particularly important that this Court grant
a stay in this case to at least permit the applicant to present a full case for plenary
review in its petition for certiorari.
CONCLUSION
Louisiana Real Estate Appraisers Board respectfully requests that the Court
issue the requested stay pending a decision on LREAB’s petition for certiorari.
Respectfully submitted,
Dated: December 16, 2020

GOLDSTEIN & RUSSELL, P.C.

________________________________
Thomas C. Goldstein
Counsel of Record
Eric F. Citron
7475 Wisconsin Ave., Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com
CONSTANTINE CANNON LLP
W. Stephen Cannon
Seth D. Greenstein
Allison F. Sheedy
Richard O. Levine
James J. Kovacs
J. Wyatt Fore
1001 Pennsylvania Ave., N.W., Suite 1300N
Washington, DC 20004
Phone: (202) 204-3500
Laura Welikson
335 Madison Avenue, 9th Floor
New York, NY 10017
212-350-2700
Counsel for Applicant
Louisiana Real Estate Appraisers Board
4

ATTACHMENT

USCA11 Case: 19-12227

Date Filed: 12/08/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________________
No. 19-12227
_________________________

SMILEDIRECTCLUB, LLC,

Plaintiff-Appellee,
versus

TANJA D. BATTLE,
in her official capacity as Executive Director of the
Georgia Board of Dentistry, et al.,

Defendants-Appellants.

__________________________
On Appeal from the United States District Court
for the Northern District of Florida
__________________________
Before WILLIAM PRYOR, Chief Judge, WILSON, MARTIN, JORDAN,
ROSENBAUM, JILL PRYOR, NEWSOM, BRANCH, GRANT, LUCK, LAGOA,
and BRASHER, Circuit Judges.
BY THE COURT:
A judge of this Court having requested a poll on whether this case should be
reheard en banc, and a majority of the judges of this Court in active service having
voted in favor, the Court sua sponte ORDERS that this case will be reheard en banc.
The panel’s opinion is VACATED.

